No. 20-804

 

IN THE
Supreme Court of the United States

HOousTON COMMUNITY COLLEGE SYSTEM,

Petitioner,
v.

DAVID BUREN WILSON,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

9,653 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33,1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 14, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
